No.

IN THE

bu,prente Court of the Eniteb btateo
REMINGTON ARMS Co., LLC, ET AL,

v.

Petitioners,

DONNA L. SOTO, ADMINSTRATRIX OF THE ESTATE OF
VICTORIA L. SOTO, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of Connecticut

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,914 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 1, 2019.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

